APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Memorandum Opinion in the United
States Court of Appeals for the Ninth
Circuit
(September 24, 2019) . . . . . . . . . . App. 1
Appendix B Order
and Judgment in the
United States District Court, District
of Nevada
(December 20, 2016) . . . . . . . . . . . App. 8
Appendix C Order Denying Petition for Rehearing
En Banc in the United States Court of
Appeals for the Ninth Circuit
(November 26, 2019) . . . . . . . . . . App. 54

App. 1

APPENDIX A
NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
No. 17-15009
D.C. No. 3:13-cv-00267-MMD-WGC
[Filed September 24, 2019]
______________________________
JEFF N. ROSE,
)
Petitioner-Appellant,
)
)
v.
)
)
RENEE BAKER, Warden;
)
ATTORNEY GENERAL FOR )
THE STATE OF NEVADA,
)
Respondents-Appellees.
)
_____________________________ )
MEMORANDUM*
Appeal from the United States District Court
for the District of Nevada
Miranda M. Du, District Judge, Presiding

*

This disposition is not appropriate for publication and is not
precedent except as provided by Ninth Circuit Rule 36-3.

App. 2
Argued April 9, 2018
Submitted September 24, 2019
San Francisco, California
Before: WARDLAW and CLIFTON, Circuit Judges, and
KATZMANN,** Judge.
Jeff Rose appeals the district court’s denial of his 28
U.S.C. § 2254 habeas corpus petition. We have
jurisdiction under 28 U.S.C. §§ 1291, 2253 and review
the district court’s denial of Rose’s petition de novo.
Lambert v. Blodgett, 393 F.3d 943, 964 (9th Cir. 2004).
We affirm in part and reverse in part.
1. Rose claims that the Nevada Supreme Court’s
holding, without reasoning, that the admission of
polygrapher Gordon Moore’s testimony about Rose’s
false admissions during his polygraph exam and a
selective transcript of the exam did not violate his due
process right to a fair trial was contrary to or an
unreasonable application of clearly established
Supreme Court law. 28 U.S.C. § 2254(d)(1). Although
the district court denied this claim, it certified the
claim for appellate review. We conduct an independent
review of the record. See Greene v. Lambert, 288 F.3d
1081, 1088-89 (9th Cir. 2002). We affirm.
A defendant is deprived due process of law if he is
denied “a fair hearing and a reliable determination on
the issue of voluntariness” of an admission. Jackson v.
Denno, 378 U.S. 368, 377 (1964).

**

The Honorable Gary S. Katzmann, Judge for the United States
Court of International Trade, sitting by designation.

App. 3
Although Rose received such a hearing, he claimed
it was “aborted” and “neither ‘fair’ nor a ‘reliable
determination.’” It is not enough, however, for Rose to
point to shortcomings in the state court procedures
used to decide the issue of voluntariness. Procunier v.
Atchley, 400 U.S. 446, 451 (1971). Rose must “also show
that his version of events, if true, would require the
conclusion that his confession was involuntary.” Id.
Even if the hearing were procedurally deficient as
alleged, we conclude it would not have been
unreasonable for the Nevada Supreme Court to have
determined that Rose voluntarily made the false
admissions to Moore.
Moore read Rose his Miranda warnings, advised
Rose that he was free to leave at any time, and had
Rose sign a document indicating he understood his
rights. Rose voluntarily drove himself to the building
where the questioning took place, he was not
handcuffed or placed under arrest immediately before
or after the questioning, he was never physically
threatened or harmed, and there is little indication
that the questioning rose to the level of improper
psychological pressure. Giving deference to the factual
findings of the trial judge, who had presided over
Rose’s first trial, the Nevada Supreme Court could
have reasonably concluded Rose voluntarily made the
statements to Moore.
Rose additionally claimed that even if the
admissions to Moore were voluntary, the trial court
deprived him of “a meaningful opportunity to present
a complete defense” when it prohibited him from
explaining that these false admissions were made in an

App. 4
attempt to explain the purported results of a failed
polygraph examination. We conclude this argument has
not been exhausted because Rose failed to provide
Nevada state courts with notice or a “fair opportunity”
to address this federal constitutional claim. Castillo v.
McFadden, 399 F.3d 993, 998–99 (9th Cir. 2005); see
also Duncan v. Henry, 513 U.S. 364, 365-66 (1995) (per
curiam). We cannot grant habeas relief on an
unexhausted claim. 28 U.S.C. § 2254(b)(1)(A).1
2. Rose additionally argued that the Nevada
Supreme Court’s decision upholding an order by the
trial court that excluded all evidence relating to other
accusers or the results of the first trial was contrary to
or an unreasonable application of federal law. The
district court did not certify this claim for appeal, but
Rose presented arguments on this and other
uncertified claims in his opening brief, and we ordered
the parties to brief those issues on the merits. We
construe Rose’s arguments as a motion to expand the
certificate of appealability (COA). See 9th Cir. R. 221(e). Because Rose “has made a substantial showing of
the denial of a constitutional right,” we grant a COA as
to claim one of his amended federal habeas petition. 28
U.S.C. 2253(c)(2); see also Buck v. Davis, 137 S. Ct. 759,

1

Even if the argument were exhausted, it is a nonstarter because,
as Rose conceded, he “never sought to admit the purported results
of the test,” even in the alternative. Rose’s statements to Moore
were admissible to show Rose’s attempts to explain the victims’
allegations, and the admission of the statements was not
prohibited by clearly established federal law. The allegedly
excluded evidence that would have put Moore’s testimony into
context, the polygraph evidence, was the evidence that Rose
himself fought to exclude.

App. 5
773 (2017). We reverse the judgment of the district
court and remand with instructions to conditionally
grant the writ of habeas corpus pending a new trial.
Just prior to trial, the court ruled that “neither the
State nor the Defense is going to be able to bring in any
evidence of any prior trial, any acquittal, any other
victims,” even in the context of cross-examining his
accusers. Rose contended this ruling gutted his
intended defense theory and violated his constitutional
right to “a meaningful opportunity to present a
complete defense,” Crane v. Kentucky, 476 U.S. 683,
690 (1986) (quoting California v. Trombetta, 467 U.S.
479, 485 (1984)).
“Whether rooted directly in the Due Process Clause
of the Fourteenth Amendment, or in the Compulsory
Process or Confrontation clauses of the Sixth
Amendment the Constitution guarantees criminal
defendants a meaningful opportunity to present a
complete defense.” Crane, 476 U.S. at 690 (citations
omitted). An evidentiary ruling abridges this right if it
is “‘arbitrary’ or ‘disproportionate to the purposes they
are designed to serve[,]’ . . . [and] it has infringed upon
a weighty interest of the accused.” United States v.
Scheffer, 523 US. 303, 308 (1998) (quoting Rock v.
Arkansas, 483 U.S. 44, 56 (1987).
A.C.’s and C.C.’s testimonies were “central, indeed
crucial, to the prosecution’s case.” Olden v. Kentucky,
488 U.S. 227, 233 (1988) (per curiam). A.C. testified she
saw Rose molest C.C., yet she had previously stated to
a detective that Rose molested other girls, all of whom
were purportedly ready to testify otherwise. The trial
court’s limitation on the scope of Rose’s cross-

App. 6
examination of A.C. prevented him from impeaching
her on these similar accusations. Further, because Rose
could not cross-examine A.C. and C.C. about their
relationship with D.A. and other accusers or present
evidence of his earlier acquittals, Rose was unable to
present the jury with a coherent narrative regarding
the context in which the accusations arose. Because the
trial court’s ruling barred Rose from mentioning the
other accusations for which he was acquitted, it also
precluded him from introducing expert testimony that
conversations between other accusers and A.C. and
C.C. contained “sufficient indicators of suggestibility or
taint which may render their statements unreliable.”
We conclude the limits the trial court placed on the
scope of Rose’s cross-examination of A.C. and C.C. were
disproportionate and beyond reason as “[a] reasonable
jury might have received a significantly different
impression of [the witness’s] credibility had [defense
counsel] been permitted to pursue his proposed line of
cross-examination.” Id. at 232 (quoting Delaware v.
Van Arsdall, 475 U.S. 673, 680 (1986)). Although there
was a risk that a focus on the results and accusations
from the first trial could confuse the jury in the second
trial, the trial court could have mitigated this concern
with a narrower ruling.2 The overly broad evidentiary
ruling was not harmless as demonstrated by the hung

2

Nevada v. Jackson, 569 U.S. 505 (2013), on which the state relies,
is distinguishable. Unlike Rose, the defendant in Jackson was
given “wide latitude to cross-examine” his accusers. Id. at 507; see
id. at 511–12 (criticizing this court for “elid[ing] the distinction
between cross-examination and extrinsic evidence”).

App. 7
jury in the first trial, during which the charges relating
to C.C. were placed in context.
Because the limits the trial court placed on the
scope of Rose’s cross-examination denied him a
“meaningful opportunity to present a complete
defense,” Crane, 476 U.S. at 690, we conclude the
Nevada Supreme Court’s decision upholding it was
contrary to clearly established federal law. We
accordingly reverse the district court on this issue and
remand with instructions to grant the writ pending a
new trial.
3. We have carefully examined the remaining two
uncertified issues and conclude Rose has not
demonstrated that “reasonable jurists would find the
district court’s assessment of the constitutional claims
debatable or wrong.” Miller-El v. Cockrell, 537 U.S.
322, 338 (2003) (quoting Slack v. McDaniel, 529 U.S.
473, 484 (2000)). We accordingly deny Rose’s request to
certify his two remaining uncertified claims.
AFFIRMED IN PART, REVERSED IN PART,
AND REMANDED with instructions to
conditionally grant the writ pending a new trial.

App. 8

APPENDIX B
UNITED STATES DISTRICT COURT
DISTRICT OF NEVADA
***
Case No. 3:13-cv-00267-MMD-WGC
[Filed December 20, 2016]
___________________________
JEFF N. ROSE,
)
Petitioner,
)
)
v.
)
)
ROBERT LEGRAND, et al., )
Respondents.
)
__________________________ )
ORDER
This counseled first-amended petition for writ of
habeas corpus pursuant to 28 U.S.C. § 2254 by state
prisoner Jeff N. Rose is before the court for final
disposition on the merits of the remaining grounds
(ECF No. 16). Respondents have answered the petition
(ECF No. 38), and Rose replied (ECF No. 41).
I.

PROCEDURAL
BACKGROUND

HISTORY

AND

In January 2004, Rose represented himself at his
first jury trial on charges of sexual assault and
lewdness with a child under fourteen (exhibits 53, 54 to

App. 9
first amended petition).1 The jury found petitioner not
guilty of counts 1-25 and 66. (Exh. 56.) The court
declared a mistrial on counts 26-65. The court set a
new trial date, and counsel was appointed to represent
petitioner. (Exh. 55.)
On May 13, 2004, petitioner was charged in an
amended information with a total of forty counts. (Exh.
63.) Trial took place in August 2004. (Exhs. 82, 85, 86,
89, 95.) The jury found petitioner guilty of counts 1-10
(sexual assault of a minor under fourteen years of age,
victim C.C.) and counts 21-30 (sexual assault with a
minor under fourteen years of age, victim C.C.), and
not guilty of counts 11-20 (lewdness with minor under
the age of fourteen, victim C.C.) and counts 31-40
(lewdness with minor under age of fourteen, victim
A.C.). (Exh. 97.)
The court imposed the following sentences: twenty
years to life, a consecutive twenty years to life, and 18
twenty to life sentences, to run concurrently. (Exh.
106.) If petitioner is released on parole he will be
subject to lifetime supervision and required to register
as a sex offender. (Id.) Judgment of conviction was
entered on November 17, 2004. (Id.)
The Nevada Supreme Court affirmed the denial of
petitioner’s direct appeal in a published opinion on
July 26, 2007. (Exh. 126.) The Nevada Supreme Court
considered petitioner’s briefing as well as amicus
curiae briefing and denied petitioner’s petition for
rehearing and petition for en banc reconsideration.
1

Exhibits referenced in this order are exhibits to the amended
petition, ECF No. 16, and are found at ECF Nos. 17-26.

App. 10
(Exhs. 127, 131, 133, 134, 139, 141, 142.) The United
States Supreme Court denied the petitioner a writ of
certiorari on October 6, 2008. (Exh. 145.)
Petitioner filed a proper person state postconviction
petition for writ of habeas corpus, which the state
district court denied. (Exhs. 153, 154.) The Nevada
Supreme Court reversed and remanded on March 10,
2010, remanding the case to state district court for
appointment of counsel. (Exh. 160.)
On November 5, 2010, petitioner filed a counseled
state postconviction petition. (Exh. 164.) The state
district court held a hearing and then denied the
petition. (Exh. 171.) The Nevada Supreme Court
affirmed the denial of the petition on May 13, 2013,
and remittitur issued on June 7, 2013. (Exhs. 182, 187.)
Petitioner dispatched his federal habeas corpus
petition on May 20, 2013. (ECF No. 1.) On May 12,
2015, this Court granted in part respondents’ motion to
dismiss several grounds in the counseled amended
petition. (ECF No. 32.) The Court now considers the
merits of the remaining grounds.
II.

LEGAL STANDARD - AEDPA

28 U.S.C. § 2254(d), a provision of the Antiterrorism
and Effective Death Penalty Act (AEDPA), provides the
legal standards for this Court’s consideration of the
petition in this case:
An application for a writ of habeas corpus on
behalf of a person in custody pursuant to the
judgment of a State court shall not be granted
with respect to any claim that was adjudicated

App. 11
on the merits in State court proceedings unless
the adjudication of the claim ¯
(1) resulted in a decision that was contrary
to, or involved an unreasonable application of,
clearly established Federal law, as determined
by the Supreme Court of the United States; or
(2) resulted in a decision that was based on
an unreasonable determination of the facts in
light of the evidence presented in the State court
proceeding.
The AEDPA “modified a federal habeas court’s role in
reviewing state prisoner applications in order to
prevent federal habeas ‘retrials’ and to ensure that
state-court convictions are given effect to the extent
possible under law.” Bell v. Cone, 535 U.S. 685, 693-694
(2002). This Court’s ability to grant a writ is limited to
cases where “there is no possibility fair-minded jurists
could disagree that the state court’s decision conflicts
with [Supreme Court] precedents.” Harrington v.
Richter, 562 U.S. 86, 102 (2011). The Supreme Court
has emphasized “that even a strong case for relief does
not mean the state court’s contrary conclusion was
unreasonable.” Id. (citing Lockyer v. Andrade, 538 U.S.
63, 75 (2003)); see also Cullen v. Pinholster, 563 U.S.
170, 181 (2011) (describing the AEDPA standard as “a
difficult to meet and highly deferential standard for
evaluating state-court rulings, which demands that
state-court decisions be given the benefit of the doubt”)
(internal quotation marks and citations omitted).
A state court decision is contrary to clearly
established Supreme Court precedent, within the

App. 12
meaning of 28 U.S.C. § 2254, “if the state court applies
a rule that contradicts the governing law set forth in
[the Supreme Court’s] cases” or “if the state court
confronts a set of facts that are materially
indistinguishable from a decision of [the Supreme
Court] and nevertheless arrives at a result different
from [the Supreme Court’s] precedent.” Lockyer, 538
U.S. at 73 (quoting Williams v. Taylor, 529 U.S. 362,
405-06 (2000), and citing Bell, 535 U.S. at 694.
A state court decision is an unreasonable
application of clearly established Supreme Court
precedent, within the meaning of 28 U.S.C. § 2254(d),
“if the state court identifies the correct governing legal
principle from [the Supreme Court’s] decisions but
unreasonably applies that principle to the facts of the
prisoner’s case.” Lockyer, 538 U.S. at 74 (quoting
Williams, 529 U.S. at 413). The “unreasonable
application” clause requires the state court decision to
be more than incorrect or erroneous; the state court’s
application of clearly established law must be
objectively unreasonable. Id. (quoting Williams, 529
U.S. at 409).
To the extent that the state court’s factual findings
are challenged, the “unreasonable determination of
fact” clause of § 2254(d)(2) controls on federal habeas
review. E.g., Lambert v. Blodgett, 393 F.3d 943, 972
(9th Cir.2004). This clause requires that the federal
courts “must be particularly deferential” to state court
factual determinations. Id. The governing standard is
not satisfied by a showing merely that the state court
finding was “clearly erroneous.” 393 F.3d at 973.
Rather, AEDPA requires substantially more deference:

App. 13
. . . [I]n concluding that a state-court finding is
unsupported by substantial evidence in the
state-court record, it is not enough that we
would reverse in similar circumstances if this
were an appeal from a district court decision.
Rather, we must be convinced that an appellate
panel, applying the normal standards of
appellate review, could not reasonably conclude
that the finding is supported by the record.
Taylor v. Maddox, 366 F.3d 992, 1000 (9th Cir.2004);
see also Lambert, 393 F.3d at 972.
Under 28 U.S.C. § 2254(e)(1), state court factual
findings are presumed to be correct unless rebutted by
clear and convincing evidence. The petitioner bears the
burden of proving by a preponderance of the evidence
that he is entitled to habeas relief. Cullen, 563 U.S. at
181.
III.

THE INSTANT PETITION
A. Claims other than Ineffective Assistance
of Counsel
1. Ground 1

Rose alleges that the trial court violated his Fifth,
Sixth, and Fourteenth Amendment rights to present a
defense, cross examine witnesses, due process, and a
fair trial when it prevented him from presenting his
defense. (ECF No. 16 at 8-14). Rose states the
following: he represented himself at his first trial, and
all four accusers testified. The testimony of two
accusers was contradicted by testimony of other
witnesses, and the jury found Rose not guilty of all

App. 14
charges related to those two accusers. One of those two
had been molested when she was younger. Those two
accusers testified that all four girls had discussed the
molestation before any of the girls came forward, which
contradicted A.C. and C.C.’s testimony that they had
not discussed it amongst themselves. The jury was
unable to reach a verdict as to A.C. and C.C., and the
judge declared a mistrial. (Id.)
The State then filed an amended information
charging Rose only as to A.C. and C.C. Immediately
before the second trial, at which Rose was represented
by counsel, the prosecutor made an oral motion to bar
Rose’s defense. The new trial judge ruled that no
evidence of any other accusers would be admitted at
the second trial. The defense offered a written offer of
proof describing the testimony of the witnesses that the
court had precluded, including an expert witness; the
court did not change its ruling. Rose was convicted of
the sexual assault charges as to C.C., acquitted of the
lewdness charges as to C.C., and acquitted of all
charges as to A.C. (Id.)
The Constitution guarantees a criminal defendant
a “meaningful opportunity to present a complete
defense,” and to introduce relevant evidence on his
behalf. Crane v. Kentucky, 476 U.S. 683, 690 (1986).
However, this right is subject to reasonable restrictions
“to accommodate other legitimate interests in the
criminal trial process.” United States v. Scheffer, 523
U.S. 303, 308 (1998) (citations omitted). States have
“broad latitude” in establishing rules of evidence, which
may result in the exclusion of evidence in criminal
trials. Nevada v. Jackson, 133 S. Ct. 1990, 1992 (2013)

App. 15
(per curiam). “The accused does not have an unfettered
right to offer testimony that is incompetent, privileged,
or otherwise inadmissible under standard rules of
evidence.” Taylor v. Illinois, 484 U.S. 400, 410 (1988).
Thus, a trial judge may exclude or limit evidence to
prevent excessive consumption of time, undue
prejudice, confusion of the issues, or misleading of the
jury. See Scheffer, 523 U.S. at 308; see also Montana v.
Egelhoff, 518 U.S. 37, 42-43 (1996). The trial judge is
entitled to broad latitude in this regard, so long as the
rulings are not arbitrary or disproportionate. Scheffer,
523 U.S. at 308. Even where the exclusion of evidence
violates a defendant’s constitutional rights, habeas
relief is only appropriate if the excluded evidence had
a “substantial and injurious effect” on the verdict. See
Brecht v. Abrahamson, 507 U.S 619, 637 (1993).
The Nevada Supreme Court explained its denial of
this claim:
We also reject Rose’s argument that the
district court violated his due process right to a
fair trial when it excluded evidence offered to
support his theory that the victims had
fabricated the allegations and to impeach the
victims regarding statement they had made to
police. Although a criminal defendant has a due
process right to “introduce into evidence any
testimony or documentation which would tend to
prove the defendant’s theory of the case,”
Vipperman v. State, 96 Nev. 592, 596, 614 P.2d
532, 534 (1980), that right is subject to the rules
of evidence, including the rules that evidence
must be relevant, and that even relevant

App. 16
evidence is inadmissible if its probative value “is
substantially outweighed by the danger of unfair
prejudice, of confusion of the issues or of
misleading the jury,” NRS 48.035(1). See
Chambers v. Mississippi, 410 U.S. 284, 302
(1973); Jackson v. State, 116 Nev. 334, 335, 997
P.2d 121, 121 (2000); Brown v. State, 107 Nev.
164, 167, 807 P.2d 1379, 1381 (1991);
Vipperman, 96 Nev. at 586, 614 P.2d at 534.
Having considered the record, we conclude that
the district court did not abuse its discretion in
concluding that to the extent that Rose’s
proffered evidence was relevant, it was
inadmissible as it would unduly confuse the
issues or mislead the jury. See Jones v. State,
113 Nev. 454, 466-67, 937 P.2d 55, 63 (1997)
(stating that district court has discretion to
admit or exclude evidence and that decision is
reviewed for manifest error).
(Exh. 126 at 13-14 n.18.)
Immediately prior to the start of trial, the State
moved for a pre-trial ruling that the defense could not
comment in opening statements nor cross examine the
two other victims about the not-guilty verdicts with
respect to those victims at the first trial. (Exh. 85 at 3.)
After arguments by both sides, the trial court took a
brief recess, then returned and ruled as follows:
I find there is marginal relevance to the
information regarding [other alleged victim, D]
and the other trial and the other victims, but I
also find that under 48.035 that it’s more – it’s –
the probative value is substantially outweighed

App. 17
by the danger of unfair prejudice, confusion of
the issues, or misleading the jury.
I am not in any way, shape, or form going to
allow you to bring up evidence of another trial,
evidence of other victims. This case is going to
stand on its own with regards to the two victims
in this case. So neither the State nor the defense
is going to be able to bring in any evidence of
any prior trial, any acquittal, any other victims.
The two girls . . . in this case, it’s going to stand
on its own.
If you deliberately — if there’s any
deliberateness as to bringing that out, there’ll be
sanctions from the Court.
That’s my ruling. We’re not briefing it. And
we’re moving forward with the trial.
(Id. at 22.)
The trial court heard extensive argument regarding
the allegations by the other two accusers from the first
trial and repeatedly expressed concern about the
myriad ways that introduction of the testimony, the
fact of the acquittals, etc., were highly likely to lead to
confusion by the jury. (Exh. 85 at 2-22.) Having
reviewed the state-court record, this Court is not
persuaded that Rose has met his burden of
demonstrating that the Nevada Supreme Court’s
decision that the district court did not abuse its
discretion in barring reference to the other two
accusers was contrary to, or involved an unreasonable
application of, federal law established by the United
States Supreme Court. 28 U.S.C. § 2254(d).

App. 18
Accordingly, federal habeas relief is denied as to
ground 1.
2. Ground 2
Rose argues that the State introduced statements
he made to a polygrapher in violation of his Fifth, Sixth
and Fourteenth Amendment rights to due process, a
fair trial and cross examination. (ECF No. 16 at 14-22.)
Rose contends that the statements were misleading,
unfairly prejudicial and involuntary. He asserts that he
was denied a complete pre-trial hearing on the
voluntariness of the statements and an opportunity to
cross examine Moore at that hearing. (Id.)
In order to warrant federal habeas relief with
respect to a state court’s evidentiary ruling, a decision
to admit evidence must be so prejudicial that such
admission violated fundamental due process and the
right to a fair trial. Larson v. Palmateer, 515 F.3d 1057,
1066 (9th Cir. 2008).
In rejecting this claim, the Nevada Supreme Court
first recounted trial testimony:
The State also presented evidence regarding
statements Rose made during an interview with
Gordon Moore, an investigator with the Nevada
Division of Investigations, shortly after the
initial allegations were reported in July 2002.
Moore testified that the interview focused on
C.C.’s allegations because she had provided the
clearest and most detailed descriptions of what
Rose had done. Rose indicated to Moore that he
was scared, and he denied the allegations. Moore
testified that in his experience interviewing

App. 19
individuals accused of sexual abuse, such
denials were not uncommon, and he therefore
continued with the interview. During the course
of the interview, Rose eventually offered possible
explanations for C.C.’s accusations. In
particular, Rose discussed with Moore two
incidents that might explain C.C.’s accusations.
Moore conducted a polygraph examination
that Rose voluntarily agreed to take. The fact
that Rose had submitted to a polygraph
examination and the results of the examination
were not admitted as evidence at the trial.
However, a transcript of the interview conducted
as part of the examination was admitted at trial,
along with Moore’s testimony about statements
that Rose made to him.
The first incident involved Rose putting
powder on C.C.’s genital area at her request.
According to Moore, Rose explained that on that
particular occasion, C.C. and [Rose’s daughter]
J.R. called him into J.R.’s room after they had
been swimming and he entered the room to find
them lying naked on J.R.’s bed. J.R. complained
of a rash on her genital area and asked Rose to
put powder on the rash. C.C. then asked Rose to
do the same to her. Rose indicated that he was
reluctant to do so because C.C. was not his
daughter, but C.C. persisted and so he complied.
Rose initially indicated that he sprinkled the
powder on C.C. without touching her, but he
later indicated in response to Moore’s questions
that he may have touched her while applying

App. 20
the powder. Rose commented that he felt dirty
about the incident because C.C. was not his
daughter.
The second incident involved C.C. climbing
into Rose’s bed while he was asleep and rubbing
her vagina on his hand. According to Moore,
Rose explained that C.C. and J.R. were asleep at
the end of his bed when he woke up to find that
C.C. had climbed in bed with him and was
rubbing her vagina against his hand. He
explained that when he realized what was
happening he pulled his hand away and told
C.C. to get out of the bed and sleep on the floor.
Despite Rose’s statements about these two
incidents, Moore acknowledged that Rose
continuously and adamantly stated that he
never touched C.C. with sexual intent. It
appears that neither of the incidents described
by Rose formed the basis for the charges against
him. And J.R. and C.C. denied that either
incident ever occurred. Additionally, shortly
after his interview with Moore, Rose told Las
Vegas Metropolitan Police Detective Kristin
Meegan that he should not have made the
statement about the second incident. At trial,
Rose denied that either incident he described to
Moore ever occurred, claiming that he made
them up to satisfy Moore and to get Moore off of
his back. The district court also admitted Rose’s
testimony from the first trial in which he denied
making the statements to Moore.

App. 21
Rose testified at trial and generally denied
all of the allegations. He also testified that in
September 2001 he joined the Navy and was not
in Las Vegas. He further testified that he did not
return to Las Vegas until he was medically
discharged in March 2002 after he fractured his
leg.
(Exh. 126 at 6-7.)
The Nevada Supreme Court thereafter denied the
claim:
Rose further argues that his due process
rights were violated when the State introduced
Gordon Moore’s testimony that Rose told him
about putting powder on J.R.’s and C.C.’s
vaginas and about C.C. climbing into bed with
him. Specifically, Rose argues that his rights
were violated because (1) Moore’s testimony was
more prejudicial than probative, (2) the evidence
amounted to prior bad acts, but the district court
did not conduct a Petrocelli hearing, (3) the
district court refused to allow Rose to crossexamine Moore at the suppression hearing,
(4) the district court violated constitutional
procedure by ruling on Rose’s suppression
motion before the hearing had been completed,
and (5) the State committed prosecutorial
misconduct by using the evidence while crossexamining Rose. We have considered these
issues and conclude that they lack merit.
(Exh. 126, at 15 n.23.)

App. 22
The trial judge that presided over the first trial
conducted a hearing with respect to the voluntariness
of Rose’s statements to Moore. (Exh. 78.) The court
halted the hearing and expressed frustration that the
State did not have the audio recording of the end of the
interview between Moore and Rose. The court directed
the State to try again to locate the tape, indicated that
it could not rule on the motion without the tape, and
sent the case to the overflow calendar. At a calendar
call hearing a few days later, the presiding judge
indicated that he had sought a ruling from the original
judge with respect to the motion to suppress Rose’s
statements to Moore. (Exh. 81 at. 2-4.) He stated that
the original judge indicated that even though she had
told the parties that she was not making a ruling at
that point in the hearing without further search for the
missing tape, having taken the matter under
advisement, she decided to deny the motion based on
the hearing that she had conducted. (Id.)
It is understandable that the defense would be
frustrated with the manner in which the hearing
recounted above unfolded. However, Rose did receive a
hearing on the voluntariness of the statements.
Further, at the outset of the interview, Moore read
Rose his rights under Miranda and Rose signed a form
indicating that he had been read and understood his
Miranda rights. (Exh. 86 at 80.) Rose’s false
statements to Moore were relevant and admissible to
demonstrate that Rose fabricated incidents to try to
explain the victims’ allegations. Rose has not shown
that the trial court’s evidentiary ruling with respect to
the interview with Moore so was so prejudicial that
such admission violated fundamental due process and

App. 23
the right to a fair trial. Rose simply has not met his
burden of demonstrating that the Nevada Supreme
Court’s decision was contrary to, or involved an
unreasonable application of, federal law established by
the United States Supreme Court. 28 U.S.C. § 2254(d).
Federal habeas relief is therefore denied as to ground
2.
3. Ground 3
Rose contends that the trial court denied a motion
for a continuance to permit the defense to review a tape
and transcript of the interview with Moore that the
defense received just before the second trial started in
violation of his Fourteenth Amendment due process
and fair trial rights. (ECF No. 16 at 22.)
Whether to grant a continuance is within the trial
court’s discretion, and not every denial of a continuance
violates due process “even if the party fails to offer
evidence or is compelled to defend without counsel.”
Ungar v. Sarafite, 376 U.S. 575, 589 (1964). “There are
no mechanical tests for deciding when a denial of a
continuance is so arbitrary as to violate due process.
The answer must be found in the circumstances
present in every case, particularly in the reasons
presented to the trial judge at the time the request is
denied.” Id.; see also Morris v. Slappy, 461 U.S. 1, 11-12
(1983).
Denying this claim, the Nevada Supreme Court
explained:
This court reviews the district court’s
decision regarding a motion for continuance for
an abuse of discretion. See Mulder v. State, 992

App. 24
P.2d 845, 850-50 (Nev. 2000). We have
previously held that the district court abused its
discretion by denying a defendant’s request for
a modest continuance to procure witnesses when
the delay was not the defendant’s fault. Lord v.
State, 806 P.2d 548, 556 (Nev. 1991). However,
when a defendant fails to demonstrate that he
was prejudiced by the denial of a continuance,
the district court’s decision denying a
continuance is not an abuse of discretion.
Mulder, 992 P.2d at 850.
Here, Rose had at least a partial audiotape of
the interview, a complete transcript, and
Moore’s notes before the first trial. He has not
demonstrated that he was prejudiced by the
district court’s refusal to grant a continuance.
Cf. Beasley v. State, 404 P.2d 911 (Nev. 1965).
Accordingly, we conclude that the district court
did not abuse its discretion in denying the
motion for a continuance. [FN omitted]
(Exh. 126 at 13-14.)
Immediately prior to the start of the trial, defense
counsel moved for a continuance, explaining that the
third tape from the Moore interviewed had finally been
located and only given to him the previous night after
5 p.m. (Exh. 82 at 5-7.) At the hearing, the State noted
that the defense was familiar with the interview and
had long possessed transcripts of portions of the
interview as well as Moore’s notes. (Id. at 11-12, 21-22.)
The court inquired of the parties as to when defense
counsel would be given a transcript of the portion of the
tape the defense had not heard. (Id. at 20.) The court

App. 25
pointed out that it was Tuesday and Moore would be
called to testify toward the end of the week. The court
reasoned that the defense would have plenty of time to
review the transcript before Moore testified and denied
the continuance. (Id.)
Rose complains here that the defense did not have
sufficient time to listen to the tape and that the
transcript of the tape was incomplete and failed to
reflect that Moore pressured Rose to such an extent
that his statements were involuntary. (ECF Nos. 16; 41
at 18-24.) However, the jury heard Rose’s testimony
that he was innocent of the charges and that he was
under extreme pressure and fabricated two incidents
out of fear. (Exh. 95 at 81, 93,135-138.) Rose has failed
to show that the Nevada Supreme Court’s
determination that he failed to show prejudice from the
failure to grant a continuance was contrary to, or
involved an unreasonable application of, federal law
established by the United States Supreme Court. 28
U.S.C. § 2254(d). Accordingly, ground 3 is denied.
4. Ground 4
Rose claims that his Fifth, Sixth and Fourteenth
Amendment due process and fair trial rights were
violated when the State introduced statements that
Rose made to Moore, a polygrapher, and allowed Moore
to testify to Rose’s truthfulness. (ECF No. 16 at 24.)
The Nevada Supreme Court denied the claim,
reasoning:
Rose argues that the district court abused its
discretion by denying his motion for a mistrial
after Moore mentioned the word “polygraph” in

App. 26
describing his training and experience. Rose
argues that a mistrial was warranted because
the testimony about Moore’s training amounted
to improper admission of polygraph evidence.
We disagree.
The district court has discretion to deny a
motion for a mistrial, and this court will not
reverse the district court’s decision “‘absent a
clear showing of abuse.’” Polygraph evidence is
inadmissible unless the State, defendant, and
defendant’s counsel have executed a stipulation
providing for the defendant’s submission to the
polygraph examination. However, “‘[a] witness’s
spontaneous or inadvertent references to
inadmissible material, not solicited by the
prosecution, can be cured by an immediate
admonishment directing the jury to disregard
the statement.’”
Here, during the State’s questioning of
Moore, Rose asked for a foundation for Moore’s
expert opinion on interviewing suspects, and the
district court ordered the State to question
Moore about his qualifications. Moore then
mentioned the word “polygraph” when
describing his training and experience. Rose
objected, and the district court specifically
admonished the jury to disregard the statement.
Moore did not make any mention of the fact that
he gave Rose a polygraph test or testify as to the
results of any polygraph test. Under these
circumstances, we conclude that the
admonishment was sufficient to cure any

App. 27
prejudice and therefore the district court did not
abuse its discretion by denying Rose’s motion for
a mistrial.
(Exh. 126 at 15-16.)
At trial, the following occurred during the State’s
direct examination of Moore:
Q: Now, in regards to these interviews, Mr.
Moore, did you notice some similar patterns that
you had seen in the past in regards to other
subjects that you saw in Mr. Rose?
DEFENSE COUNSEL: Objection, Judge. If
he’s going to testify to similar patterns, we
simply don’t have a substantial enough
foundation for that. He’s not an expert into – in
looking at other people’s patterns and making a
nexus with Mr. Rose. This is — this is
completely off the mark and he does not have a
sufficient foundation, we do not have sufficient
expert training show that would allow him to
make that kind of opinion.
THE COURT: Mr. —
STATE: I guess I could go back through all of
his training, if . . . .
THE COURT: Why don’t you do that for us
....
STATE Q: All right, Mr. Moore, let’s go back
through this then. What type of particular
training have you received, specifically in
regards to interviewing subjects, or suspects?

App. 28
A: I’ve attended numerous federal and state,
local level, seminars, conferences, specifically on
the federal level with the Department of Defense
Polygraph uh, Institute –
DEFENSE COUNSEL: May we approach,
Judge.
(Exh. 86 at 87-88.) As set forth above, Moore only made
a fleeting reference to a polygraph institute as he
described his training as an investigator. Respondents
note that no evidence was introduced that Moore was
a polygrapher or that he conducted a polygraph
examination of Rose. The jury was instructed that it
may draw reasonable inferences from the evidence
presented but that such inferences should not be based
on speculation or guess. (Exh. 96, jury instruction
no. 15.) The Court concludes that Rose has not shown
that the Nevada Supreme Court’s determination that
the district court did not err in denying the motion for
a mistrial was contrary to, or involved an unreasonable
application of, federal law established by the United
States Supreme Court. 28 U.S.C. § 2254(d).
Accordingly, federal ground 4 is denied.
5. Ground 5
Rose argues that the evidence was not specific
enough to support a conviction in violation of his
Fourteenth Amendment due process rights. (ECF
No. 16 at 25.)
“The Constitution prohibits the criminal conviction
of any person except upon proof of guilt beyond a
reasonable doubt.” Jackson v. Virginia, 443 U.S. 307,
309 (1979) (citing In re Winship, 397 U.S. 358 (1970)).

App. 29
On federal habeas corpus review of a judgment of
conviction pursuant to 28 U.S.C. § 2254, the petitioner
“is entitled to habeas corpus relief if it is found that
upon the record evidence adduced at the trial no
rational trier of fact could have found proof of guilt
beyond a reasonable doubt.” Id. at 324. “[T]he standard
must be applied with explicit reference to the
substantive elements of the criminal offense as defined
by state law.” Id. at 324 n.16. On habeas review, this
Court must assume that the trier of fact resolved any
evidentiary conflicts in favor of the prosecution and
must defer to such resolution. Id. at 326. Generally, the
credibility of witnesses is beyond the scope of a review
of the sufficiency of the evidence. Schlup v. Delo, 513
U.S. 298, 330 (1995).
The Nevada Supreme Court rejected this claim on
appeal, reasoning:
When considering the sufficiency of the
evidence in sexual assault cases, we have held
that the victim’s testimony alone is sufficient to
uphold a conviction. LaPierre v. State, 836 P.2d
56, 58 (1992). Although the victim’s testimony
need not be corroborated, we have held that “the
victim must testify with some particularity
regarding the incident in order to uphold the
charge.” Id. In evaluating whether a childvictim’s uncorroborated testimony was sufficient
to support multiple charges in LaPierre v. State,
we acknowledged that “child victims are often
unable to articulate specific times of events” and
have difficulty recalling “exact instances when
the abuse occurs repeatedly over a period of

App. 30
time.” Id. Accordingly, we explained in LaPierre
that to support multiple charges of sexual abuse
over a period of time, a child victim need not
“specify exact numbers of incidents, but there
must be some reliable indicia that the number of
acts charged actually occurred.” Id.
In looking at the child-victim’s testimony in
LaPierre, this court determined that the child
victim testified with sufficient particularity to
support five of the ten charged incidents, as she
described in general terms when or where those
incidents occurred. Id. at 57. However, this court
further determined that the child-victim’s
testimony lacked particularity as to the
remaining five charges. Specifically, when the
child victim was asked how many times the
defendant assaulted her, she responded that it
was “‘[t]en or more times’” and that she knew it
was that many because he was doing it up until
he left.’” Id. And she later testified that she was
not “absolutely sure” how many times it
happened and that was why she had said “ten or
more times.” Id. This court described the
testimony as “speculation” and “conjecture”
regarding the number of incidents and concluded
that “[s]omething more is required.” Id. at 58. In
particular, this court opined that the case
“might” be different if the child victim had
testified that the defendant had assaulted her
“every weekend for the period of time [he]
resided in the family home or that he assaulted
her nearly every weekend.” Id. But because the
child-victim’s testimony was more speculative,

App. 31
this court reversed five of the convictions for
insufficient evidence.
In this case, the State charged Rose with
twenty counts of sexual assault. C.C. and others
testified that from late 1999 to July 2002, she
spent at least one night at the Roses’ house
almost every weekend. C.C. testified that Rose
touched her nearly every time she spent the
night. The only times he did not touch her were
when he was away in the Navy from September
2001 to March 2002. Although she could not
specify an exact number of incidents, she
testified that he touched her vagina with his
fingers more than ten times and with his tongue
more than ten times. She described different
locations where she was touched and graphically
detailed his actions. She recalled seeing the time
on the clock when he assaulted her in certain
rooms, and she described how she sometimes
tried to fight him off and how he would flip her
over if she was on her stomach.
The victim’s testimony in this case is
distinguishable from that of the victim in
LaPierre. C.C. definitively testified that Rose
assaulted her nearly every time she spent the
night at his house before and after he was away
in the Navy and that she spent the night at his
house almost every weekend during that time.
This is the kind of testimony that we opined
“might” have made a difference in LaPierre.
Faced with such testimony here, we conclude it
is sufficient. Taking the evidence in the light

App. 32
most favorable to the prosecution, a rational
trier of fact could have found the essential
elements of the charged sexual assaults beyond
a reasonable doubt. Accordingly, Rose’s
conviction was supported by sufficient evidence.
(Exh. 126 at 8-11.)
At trial, C.C. testified to the following: she and/or
she and her little sister spent the night at the Roses’
house nearly once every weekend. She described with
particularity the manner in which Rose touched her
vagina with his fingers or tongue nearly every time she
stayed over, including what she usually wore, what
rooms she slept in, the usual time of night, that
sometimes she would try to fight him off by kicking at
him or trying to stay on her stomach. (Exh. 86 at 13-34,
37, 40.)
Having reviewed the record, this Court concludes
that it cannot be said that based upon the evidence
adduced at the trial no rational trier of fact could have
found proof of guilt beyond a reasonable doubt.
Jackson, 430 U.S. at 324. Thus, Rose has failed to
demonstrate that the Nevada Supreme Court’s decision
was contrary to, or involved an unreasonable
application of, federal law established by the United
States Supreme Court. 28 U.S.C. § 2254(d).
Accordingly, federal habeas relief is denied as to
ground 5.
6. Ground 7
Rose claims that the trial court’s failure to record
bench conferences violated his right to be present.
(ECF No. 16 at 28.)

App. 33
The constitutional right to be present largely arises
from the Sixth Amendment Confrontation Clause, but
a defendant also “has a due process right to be present
at a proceeding whenever his presence has a relation,
reasonably substantial, to the fullness of his
opportunity to defend against the charge . . . . [T]he
presence of a defendant is a condition of due process to
the extent that a fair and just hearing would be
thwarted by his absence, and to that extent only.” U.S.
v. Gagnon, 470 U.S. 522, 526 (1985) (internal
quotations and citations omitted); see also Rushen v.
Spain, 464 U.S. 114, 125-126 (1983) (Stevens, J.
concurring in the judgment: “[T]he mere occurrence of
an ex parte conversation between a trial judge and a
juror does not constitute a deprivation of any
constitutional right. The defense has no constitutional
right to be present at every interaction between a judge
and a juror, nor is there a constitutional right to have
a court reporter transcribe every such
communication.”). The fact that a defendant was
excluded from a trial proceeding should be considered
in light of the entire record. Gagnon, 470 U.S. at 526527.
The Nevada Supreme Court denied this claim,
explaining:
A defendant must be present at every stage
of his trial, including jury selection. NRS
178.388(1). A defendant’s right to be present at
jury selection arises from his due process right
to a fair hearing. Gallego v. State, 23 P.3d 227,
240 (Nev. 2001). However, “‘[t]he due process
aspect has been recognized only to the extent

App. 34
that a fair and just hearing would be thwarted
by the defendant’s absence.’” Id. Violations of the
right to be present are reviewed for harmless
error. Id.
In this case, the district court questioned four
prospective jurors at the bench after they
indicated that they could not be fair and
impartial because they had previously been
sexually assaulted or had friends or family that
had been accused of sexual assault. The district
court then dismissed them. The district court
explained its reasoning for dismissing each juror
and stated that it conducted individual voir dire
at the bench because the issues were
embarrassing and sensitive and the court did
not want to taint the remainder of the jury pool.
We conclude that Rose has not demonstrated
that his absence from the bench conferences
prejudiced him in any way. In particular,
because the jurors were dismissed because they
could not be fair and impartial to Rose, it
appears the proceedings were fair and just
despite his absence. See id.
(Exh. 126 at 17.)
The trial court record reflects the following:
THE COURT: Okay. The jury panel has been
excused, and I’m going to go ahead and put on
the record regarding each of the information I
received from the following people: Juror 200
was the last woman that I excused. She came up
to the bench and disclosed to me that her

App. 35
husband was recently accused by a next-doorneighbor of having inappropriate contact with
her own daughter. There’s also been allegations
raised regarding the neighbor herself. They
retained an attorney. She said that she, as a
result of what had transpired, did not believe
that she could be fair and impartial due to the
nature of this case. I excused her.
Juror number 265 is not dismissed, but
disclosed to me, outside the presence of the jury,
that her boyfriend, or significant other, had been
accused of rape five or six years ago. She also –
she told me that the person making the
accusations had mental health issues and had
accused many others of similar conduct, and
that the case was dismissed, and that she could
be fair and impartial.
Juror number 209 was molested as a child
and was excused.
Juror number 260, 206 and 277 also said that
they were molested as children and needed to be
excused. They showed visible agitation and
disturbance as a result of being participating up
to this point.
Juror number 284, I excused because he
related to me that he had incest in his family.
His father had molested a niece or had an
incestuous relationship with a niece, and he
watched how that impacted his mother. He said
that it would bring up unhappy memories or

App. 36
disturbing memories, and that he couldn’t be
fair and impartial.
I think that covers all of the ones that have
been excused for those reasons.
MS. HOFFMAN (defense counsel): Judge, for
the record, the Defense lodged an objection at
the bench, partially because as these at the
bench conferences are going on with our jury
pool the Defense and the State is not privy to
anything that is said, and it’s my understanding
that there’s not a record being taken of the
conversation. We feel that this is a critical stage
of the proceedings, that we have a right to be
able to hear what the jurors say about whether
they’re able to be fair and impartial, and that we
would also have an accompanying right to be
able to voir dire in an attempt to rehabilitate
witnesses. We can’t do that if we can’t hear what
they’re saying between Your Honor and the juror
with all due respect and we’d object to this, and
I’d like to record to reflect that.
...
THE COURT: And the record will certainly
reflect that with all due respect, but there would
be nothing to rehabilitate in front of the rest of
the panel because they are not disclosing in
front of everybody else that they have a
particular issue that anybody else needs to hear
about. And to save them the embarrassment and
humiliation and the emotional portion of having
to disclose this in front of all of the strangers

App. 37
that we have here in the courtroom, I take these
folks up. I relay to you what their problems are
after each one occurs. I tell you that I’m going to
let them go because I believe it is discretionary
on my part to let them go at this state as a
result of what they disclosed to me. By not
disclosing to the rest of the panel, I believe that
that keeps that from tainting anybody else on
this jury. And, so, your objection is noted. Thank
you very much.
(Exh. 82 at 91-93.) The court subsequently brought
some other jurors into the courtroom one at a time and
permitted counsel to ask them questions. (Id. at 109121.)
Here, Rose has made no showing that these ex parte
exchanges between the judge and these jurors impacted
his ability to fully defend himself and violated due
process. While the initial conversations were ex parte,
the judge then put the specifics of the conversations on
the record and also permitted the parties to question
subsequent jurors. The judge explained that she
dismissed the four jurors because they had been
sexually assaulted or had close family experience with
sexual assault. It cannot be said that the judge’s
concern for the privacy of these potential jurors — all
of whom were dismissed because the court had specific
concerns that they could not be impartial and in fact
might be biased against the defendant — prejudiced
Rose in any manner. Nor does the record reflect that
Rose had any objection to the jurors who were excused
for cause by the court. Rose has failed to demonstrate
that the Nevada Supreme Court’s decision was

App. 38
contrary to, or involved an unreasonable application of,
federal law established by the United States Supreme
Court. 28 U.S.C. § 2254(d). Accordingly, federal habeas
relief is denied as to ground 7.
B. Ground 9 Ineffective Assistance of
Counsel
Ineffective assistance of counsel claims are governed
by the two-part test announced in Strickland v.
Washington, 466 U.S. 668 (1984). In Strickland, the
Supreme Court held that a petitioner claiming
ineffective assistance of counsel has the burden of
demonstrating that (1) the attorney made errors so
serious that he or she was not functioning as the
“counsel” guaranteed by the Sixth Amendment, and
(2) that the deficient performance prejudiced the
defense. Williams, 529 U.S. at 390-91 (citing
Strickland, 466 U.S. at 687).
To establish ineffectiveness, the defendant must
show that counsel’s representation fell below an
objective standard of reasonableness. Id. To establish
prejudice, the defendant must show that there is a
reasonable probability that, but for counsel’s
unprofessional errors, the result of the proceeding
would have been different. Id. A reasonable probability
is “probability sufficient to undermine confidence in the
outcome.” Id. Additionally, any review of the attorney’s
performance must be “highly deferential” and must
adopt counsel’s perspective at the time of the
challenged conduct, in order to avoid the distorting
effects of hindsight. Strickland, 466 U.S. at 689. It is
the petitioner’s burden to overcome the presumption

App. 39
that counsel’s actions might be considered sound trial
strategy. Id.
Ineffective assistance of counsel under Strickland
requires a showing of deficient performance of counsel
resulting in prejudice, “with performance being
measured against an objective standard of
reasonableness, . . . under prevailing professional
norms.” Rompilla v. Beard, 545 U.S. 374, 380 (2005)
(internal quotations and citations omitted). When the
ineffective assistance of counsel claim is based on a
challenge to a guilty plea, the Strickland prejudice
prong requires a petitioner to demonstrate “that there
is a reasonable probability that, but for counsel’s
errors, he would not have pleaded guilty and would
have insisted on going to trial.” Hill v. Lockhart, 474
U.S. 52, 59 (1985).
If the state court has already rejected an ineffective
assistance claim, a federal habeas court may only grant
relief if that decision was contrary to, or an
unreasonable application of, the Strickland standard.
See Yarborough v. Gentry, 540 U.S. 1, 5 (2003). There
is a strong presumption that counsel’s conduct falls
within the wide range of reasonable professional
assistance. Id.
The United States Supreme Court has described
federal review of a state supreme court’s decision on a
claim of ineffective assistance of counsel as “doubly
deferential.” Cullen, 563 U.S. at 190 (quoting Knowles
v. Mirzayance, 129 S.Ct. 1411, 1413 (2009)). The
Supreme Court emphasized that: “We take a ‘highly
deferential’ look at counsel’s performance . . . through
the ‘deferential lens of § 2254(d).’” Id. at 1403 (internal

App. 40
citations omitted). Moreover, federal habeas review of
an ineffective assistance of counsel claim is limited to
the record before the state court that adjudicated the
claim on the merits. Cullen, 563 U.S. at 181-84. The
United States Supreme Court has specifically
reaffirmed the extensive deference owed to a state
court’s decision regarding claims of ineffective
assistance of counsel:
Establishing that a state court’s application of
Strickland was unreasonable under § 2254(d) is
all the more difficult. The standards created by
Strickland and § 2254(d) are both “highly
deferential,” id. at 689, 104 S.Ct. 2052; Lindh v.
Murphy, 521 U.S. 320, 333, n.7, 117 S.Ct. 2059,
138 L.Ed.2d 481 (1997), and when the two apply
in tandem, review is “doubly” so, Knowles, 556
U.S. at ––––, 129 S.Ct. at 1420. The Strickland
standard is a general one, so the range of
reasonable applications is substantial. 556 U.S.
at ––––, 129 S.Ct. at 1420. Federal habeas
courts must guard against the danger of
equating unreasonableness under Strickland
with unreasonableness under § 2254(d). When
§ 2254(d) applies, the question is whether there
is any reasonable argument that counsel
satisfied Strickland’s deferential standard.
Harrington, 562 U.S. at 105. “A court considering a
claim of ineffective assistance of counsel must apply a
‘strong presumption’ that counsel’s representation was
within the ‘wide range’ of reasonable professional
assistance.” Id. at 104 (quoting Strickland, 466 U.S. at
689). “The question is whether an attorney’s

App. 41
representation amounted to incompetence under
prevailing professional norms, not whether it deviated
from best practices or most common custom.” Id.
(internal quotations and citations omitted).
As ground 9(A), Rose claims that trial counsel
rendered ineffective assistance for failing to conduct
proper investigation and pretrial preparation, namely
that counsel should have had a medical expert testify
about Rose’s injuries and should have had Dr. Esplin
testify. (ECF No. 16 at 31-32.)
The Nevada Supreme Court affirmed the denial of
this claim in Rose’s state postconviction petition,
stating that many of the victim’s allegations of sexual
abuse predated Rose’s broken hip and resultant
physical limitations, and therefore, Rose failed to
demonstrate prejudice. The state supreme court also
pointed out that Rose failed to explain how counsel was
deficient in failing to secure the attendance of expert
witness Dr. Esplin at trial, or what counsel should have
done differently, and therefore, Rose failed to
demonstrate deficiency or prejudice. (Exh. 182 at 3 and
n.1.)
Rose’s wife testified as to how his injuries affected
his daily life. (Exh. 89 at 32, 40-43, 45-46.) Rose also
testified about how his injuries affected his daily life.
(Exh. 95 at 104-107, 110-111, 134.) Further,
respondents point out that Rose fails to show what Dr.
Esplin — who was to testify that it was his opinion that
the four accusers fabricated the allegations together —
would have based his opinion upon on because the trial
court had ruled that evidence of the other accusers and
the previous acquittals would not be admitted.

App. 42
As ground 9(B), Rose contends that trial counsel
failed to seek a pretrial psychiatric evaluation of the
victims. (ECF No. 16 at 32.)
Affirming the denial of this claim, the Nevada
Supreme Court stated that Rose did not show that a
psychological evaluation of the victims would have been
appropriate, “as he did not show that the State
benefited from a psychological expert or that there was
a reasonable basis for believing that the victims’
mental or emotional state may have affected their
veracity.” (Exh. 182 at 3-4.) The state supreme court
thus concluded that Rose did not demonstrate a
reasonable probability of a different outcome at trial
had counsel sought a psychological evaluation of the
victims. (Id.)
Here, Rose does not explain what a psychological
evaluation would have revealed or show any reasonable
probability that such an examination would have
changed the outcome at trial.
In ground 9(C), Rose asserts that trial counsel was
ineffective for failing to insist that the bench
conferences be recorded because the conferences
demonstrated “(1) the court’s bias against the
defendant; (2) the unpreparedness and ineffectiveness
of defense counsel; and (3) the overzealousness and
misconduct of the prosecution.” (ECF No. 16, at 34-35.)
The Nevada Supreme Court affirmed the denial of
the claim:
[A]ppellant argues that trial counsel was
ineffective for failing to ensure that all bench
conferences and discussions were recorded. We

App. 43
conclude that appellant failed to demonstrate
that he was prejudiced, as he has not identified
any issues that this court was unable to
meaningfully review due to the failure to record
bench conferences. See, Hargrove [v. State,] 100
Nev. at 502, 686 P.2d at 255 (holding that “bare”
or “naked” claims are insufficient to grant
relief). To the extent that he claims that
appellate review of jury selection was not
possible, this claim is belied by the record, as
this court concluded on direct appeal that
appellant was not prejudiced by the unrecorded
bench conferences during the jury selection
process. Rose v. State, 123 Nev. 194, 207-08, 163
P.3d 408, 417 (2007). Furthermore, a review of
the record shows that most of the unrecorded
bench conferences during trial were explained on
the record or pertained to housekeeping matters.
Therefore, we conclude that the district court did
not err in denying this claim.
(Exh. 182 at 4-5.) Rose presents no further facts to
support ground 9(B), and this court concludes that it is
belied by the record.
Rose next alleges in ground 9(D) that trial counsel’s
opening statement was ineffective because it was not
clear, precise or organized. (ECF No. 16 at 34.)
The Nevada Supreme Court observed that
[c]ounsel’s opening statement set forth the
theory of the defense and addressed evidence
that would be presented at trial. Appellant has
failed to specify what additional information

App. 44
counsel should have included in the opening
statement, nor has he shown a reasonable
probability that, but for counsel’s error, the
outcome of the trial would have been different.
(Exh. 182 at 5.)
The record reflects that during opening statements,
defense counsel presented the defense theory of the
case and stated that Rose has consistently denied the
allegations. Counsel described some of the witnesses,
emphasized that credibility will be important, and
asked the jurors to take notes, ask tough questions and
pay attention to the demeanor of witnesses. (Exh. 85 at
62-67.) Rose’s contention that defense counsel failed to
describe witnesses and evidence is, therefore, belied by
the record.
In ground 9(E), Rose contends that trial counsel
failed to challenge the trial court’s bias. (ECF No. 16 at
34-35.)
Affirming the denial of this claim, the state supreme
court reasoned:
[A]ppellant argues that trial counsel was
ineffective for failing to move to recuse Judge
Jackie Glass for bias toward the defense.
Appellant specifically contends that Judge Glass
was biased because she excluded evidence
offered to support appellant’s theory that the
victims had fabricated the allegations, denied
his motion for a continuance, conducted
unrecorded bench conferences, reprimanded
defense counsel for asking leading questions of
appellant, and made inappropriate statements

App. 45
at sentencing. We conclude that appellant failed
to demonstrate that trial counsel was deficient
or that he was prejudiced. Adverse rulings
“during the course of official judicial proceedings
do not establish legally cognizable grounds for
disqualification.” In re Petition to Recall
Dunleavy, 104 Nev. 784, 789, 769 P.2d 1271,
1275 (1988). Moreover, this court concluded on
direct appeal that the district court did not
abuse its discretion in excluding the evidence of
fabricated allegations. Rose, 123 Nev. at 205
n.18, 163 P.3d at 415 n.18. Thus, a motion to
recuse on this basis would have been futile. See
Ennis v. State, 122 Nev. 694, 706, 137 P.3d 1095,
1103 (2006). As for the other challenged conduct
and statements, appellant failed to demonstrate
that Judge Glass closed her mind to the
presentation of evidence, see Cameron v. State,
114 Nev. 1281, 1283, 968 P.2d 1169, 1171 (1998),
or displayed “‘a deep-seated favoritism or
antagonism that would make fair judgment
impossible,’” Kirksey v. State, 112 Nev. 980,
1007, 923 P.2d 1102, 1119 (1996) (quoting Liteky
v. United States, 510 U.S. 540, 555 (1994)).
Thus, we conclude that the district court did not
err in denying this claim.
(Exh. 182 at. 5-6.)
During trial, the court admonished defense counsel
about leading questions, getting into testimony about
other possible victims, repetition of questions, and
asking Rose to speculate. (Exh. 95 at 94, 96, 99, 102,
112, 121-122,133.) In response to the State’s objection,

App. 46
the court also asked defense counsel to ask questions in
a proper form. (Id. at 127.) During the same part of the
trial, the court also overruled several of the State’s
objections and granted defense counsel’s continuing
objection to the State’s numerous objections. (Exh. 95
at 108, 113, 125, 127-128, 132.) Overall, the record of
the state proceedings reflects the trial court’s
frustration with both sides rather than bias against
Rose. (See, e.g., Exh. 95.)
In ground 9(F), Rose claims that trial counsel failed
to object to the admission of Moore’s interview, failed to
properly object to and prevent Moore’s testimony and
failed to file a motion in limine to prevent Moore’s
improper speculations on Rose’s credibility. (ECF
No. 16 at 35.)
The Nevada Supreme Court affirmed the denial of
this claim:
[A]ppellant argues that trial counsel was
ineffective for failing to effectively prevent and
cure a reference by State witness G. Moore to
prejudicial polygraph evidence. Appellant failed
to demonstrate that trial counsel was deficient
or that he was prejudiced. Trial counsel objected
and requested a mistrial when Moore mentioned
the word “polygraph” in describing his training
and experience. On direct appeal, this court
concluded that the district court’s
admonishment to the jury cured any prejudice
from this single “polygraph” reference and that
a mistrial was not warranted. Rose, 123 Nev. at
206-07, 163 P.3d at 416-17. Thus, we conclude

App. 47
that the district court did not err in denying this
claim.
(Exh. 182 at 7.)
Trial counsel filed a successful motion for in camera
review of Moore’s personnel records and also filed a
motion to suppress Rose’s statements to Moore and to
challenge the voluntariness of Rose’s statements,
which, as discussed above, the trial court denied.
(Exhs. 69, 71, 66, 81.) Rose has not set forth what other
steps trial counsel should have taken. Especially in
light of the pretrial motions, Rose has not
demonstrated a reasonable probability of a different
outcome at trial.
Finally, in ground 9, as 9(G) Rose argues that trial
counsel failed to object to prosecutorial misconduct.
(ECF No. 16 at 35-36.)
Rejecting this claim, the Nevada Supreme Court
reasoned:
[A]ppellant argues that trial counsel was
ineffective for failing to timely object to
prosecutorial misconduct during closing
argument. Specifically, he contends that the
prosecutor improperly referred to him as a
“predator,” stated that defense counsel used
“smoke screens and flat-out deception” and “is
trying to fool you,” and commented that the
victims were “old enough to be believed, to be
remembered, and to be given justice.” Appellant
challenged these comments on direct appeal and
this court concluded that the comments were not
prejudicial and thus did not amount to plain

App. 48
error. [citing, Rose v. State, 123 Nev. 194, 20811, 163 P.3d 408, 417-19 (2007).] Although
appellant appears to contend that his appellate
rights were forfeited by counsel’s failure to
object, he offers no cogent argument as to how a
different standard of review on appeal would
have affected the outcome of either the trial or
the appeal. Maresca v. State, 103 Nev. 669, 673,
748 P.2d 3, 6 (1987). Thus, we conclude that the
district court did not err in denying the claim.
(Exh. 182 at 7.)
Rose has not shown that this decision is contrary to
or an unreasonable application of Strickland. On direct
appeal, the Nevada Supreme Court determined that
the above comments were improper but that none were
prejudicial and therefore none constituted plain error.
Even assuming, arguendo, that defense counsel was
ineffective for failing to object to these improper
comments, Rose cannot demonstrate that, but for
counsel’s failure to object during closing arguments,
there is a reasonable probability of a different outcome
at trial. As detailed above, the jury heard the two girls
testify extensively. In fact, the jury acquitted Rose of
all charges as to A.C. C.C. testified with particularity
as to specific acts that Rose committed. State
investigator Moore testified about his interview with
Rose, including about the incidents that Rose
fabricated to try to explain the charges. Moreover, the
jury heard Rose testify to his innocence and heard his
explanation for fabricating incidents.
Rose has, therefore, failed to show that the Nevada
Supreme Court’s decision on any portion of federal

App. 49
ground 9 is contrary to, or involves an unreasonable
application of, Strickland, or was based on an
unreasonable determination of the facts in light of the
evidence presented in the state court proceeding. 28
U.S.C. § 2254(d). Federal habeas relief is denied as to
ground 9.
C. Ground 10 Cumulative Error
Rose argues that cumulative error warrants habeas
relief. (ECF No. 16 at 36.) The Ninth Circuit has
concluded that cumulative errors may warrant AEDPA
relief if the errors taken together rise to a violation of
the due process guarantee of fundamental fairness.
Parle v. Runnels, 505 F.3d 922 (9th Cir. 2007).
On direct appeal, the state supreme court
concluded:
Rose argues that his conviction must be
reversed because of cumulative error. “The
cumulative effect of errors may violate a
defendant’s constitutional right to a fair trial
even though errors are harmless individually.”
If the defendant’s fair trial rights are violated
because of the cumulative effect of the errors,
this court will reverse the conviction. The
relevant factors to consider when deciding
whether cumulative error requires reversal are
“(1) whether the issue of guilt is close, (2) the
quantity and character of the error, and (3) the
gravity of the crime charged.” Although the
crimes charged are serious, the State presented
compelling evidence of Rose’s guilt and the few
errors that we have discussed are minor. We

App. 50
hold that there is
warranting reversal.

no

cumulative

error

(Exh. 126 at 22.) Further, the Nevada Supreme Court
affirmed the denial of Rose’s postconviction petition,
including a claim of cumulative error: “because [Rose]
failed to demonstrate multiple deficiencies, he failed to
demonstrate cumulative error.” (Exh. 182 at 8.)
This Court has denied habeas relief on the grounds
set forth above. Having carefully reviewed the statecourt record and the parties’ arguments, this Court
concludes that Rose has not demonstrated any
combination of errors that so infected the trial with
unfairness as to make his conviction a denial of his due
process rights. Ground 10 is, therefore, denied.
Accordingly, the petition is denied in its entirety.
IV.

CERTIFICATE OF APPEALABILITY

This is a final order adverse to the petitioner. As
such, Rule 11 of the Rules Governing Section 2254
Cases requires this Court to issue or deny a certificate
of appealability (COA). Accordingly, the Court has sua
sponte evaluated the claims within the petition for
suitability for the issuance of a COA. See 28 U.S.C.
§ 2253(c); Turner v. Calderon, 281 F.3d 851, 864-65
(9th Cir. 2002).
Pursuant to 28 U.S.C. § 2253(c)(2), a COA may
issue only when the petitioner “has made a substantial
showing of the denial of a constitutional right.” With
respect to claims rejected on the merits, a petitioner
“must demonstrate that reasonable jurists would find
the district court’s assessment of the constitutional

App. 51
claims debatable or wrong.” Slack v. McDaniel, 529
U.S. 473, 484 (2000) (citing Barefoot v. Estelle, 463 U.S.
880, 893 & n.4 (1983)). For procedural rulings, a COA
will issue only if reasonable jurists could debate
(1) whether the petition states a valid claim of the
denial of a constitutional right and (2) whether the
court’s procedural ruling was correct. Id.
Having reviewed its determinations and rulings in
adjudicating Rose’s petition, the Court concludes that,
pursuant to Slack, reasonable jurists could find its
ruling on ground 2 to be debatable or wrong. The Court
therefore will issue a certificate of appealability for its
resolution of ground 2 only.
V.

CONCLUSION

It is therefore ordered that the first-amended
petition (ECF No. 16) is denied in its entirety.
It is further ordered that a certificate of
appealability is granted as to ground 2.
It is further ordered that the Clerk enter judgment
accordingly and close this case.
DATED THIS 20th day of December 2016.
/s/ Miranda M. Du
MIRANDA M. DU
UNITED STATES DISTRICT JUDGE

App. 52
AO 450 (Rev. 5/85) Judgment in a Civil Case
UNITED STATES DISTRICT COURT
***** DISTRICT OF NEVADA
CASE NUMBER: 3:13-cv-00267-MMD-WGC
[Filed December 20, 2016]
___________________________
JEFF N. ROSE,
)
Petitioner,
)
)
V.
)
)
ROBERT LEGRAND, et al., )
Respondents.
)
__________________________ )
JUDGMENT IN A CIVIL CASE
__ Jury Verdict. This action came before the Court
for a trial by jury. The issues have been tried and
the jury has rendered its verdict.
__ Decision by Court. This action came to trial or
hearing before the Court. The issues have been
tried or heard and a decision has been rendered.
X Decision by Court. This action came to be
considered before the Court. The issues have been
considered and a decision has been rendered.
IT IS ORDERED AND ADJUDGED the firstamended petition (ECF No. 16) is denied in its entirety.
IT IS FURTHER ORDERED that a certificate of
appealability is granted as to ground 2.

App. 53
December 20, 2016
LANCE S. WILSON
Clerk
/s/ D. R. Morgan
Deputy Clerk

App. 54

APPENDIX C
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
No. 17-15009
D.C. No. 3:13-cv-00267-MMD-WGC
District of Nevada, Reno
[Filed November 26, 2019]
______________________________
JEFF N. ROSE,
)
Petitioner-Appellant,
)
)
v.
)
)
RENEE BAKER, Warden;
)
ATTORNEY GENERAL FOR )
THE STATE OF NEVADA,
)
Respondents-Appellees.
)
_____________________________ )
ORDER
Before: WARDLAW and CLIFTON, Circuit Judges, and
KATZMANN,* Judge.
Judges Wardlaw, Clifton, and Katzmann vote to
deny the petition for panel rehearing. Judge Wardlaw
votes to deny the petition for rehearing en banc, and
Judges Clifton and Katzmann so recommend.
*

The Honorable Gary S. Katzmann, Judge for the United States
Court of International Trade, sitting by designation.

App. 55
The full court has been advised of the petition for
rehearing en banc, and no judge has requested a vote
on whether to rehear the matter en banc. Fed. R. App.
P. 35.
The petition for panel rehearing and rehearing en
banc is therefore DENIED.

